HHS/OIG, Audit -"Review of Billing Under the Home Health Prospective Payment System
for Therapy Services,"(A-07-04-01010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Billing Under the Home Health Prospective
Payment System for Therapy Services," (A-07-04-01010)
January 9, 2006
Complete
Text of Report is available in PDF format (458 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if Oxfords claims with 10-12 therapy visits complied with
Federal regulations and guidance.  We found that  Oxfords claims with 10-12
therapy visits did not always comply with Federal regulations and guidance.  Of 100
statistically sampled claims reviewed by medical professionals, 50 claims had errors (6 claims
had 2 errors) that caused the Medicare payment amounts to be incorrect.  Oxford had
inadequate quality assurance procedures to ensure that the claims were for medically necessary
services and properly authorized therapy services, and that it correctly assessed the beneficiarys
health status.  As a result, we estimate that $685,406, of the $3,021,489 that Oxford
received for the 851 therapy claims, is unallowable.  We recommended that Oxford:  (1)
refund $685,406 to the Medicare program; (2)   identify and submit adjusted home
health claims for Medicare overpayments received subsequent to our audit period; and (3)
strengthen controls to ensure that all claims are for medically necessary services and properly
authorized therapy services, and that it correctly assesses the beneficiarys health status.
In its response, Oxford disagreed with many of the medical review determinations and with
the recommended amount.  However, Oxford agreed to strengthen its control processes.